No.
IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

TOMMY LEE JONES, PETITIONER
-Vs-
UNITED STATES OF AMERICA

MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS

NOW COMES the Petitioner, TOMMY LEE JONES, by his attorney,
ARTHUR JAY WEISS, and respectfully moves this Honorable Court to file the
enclosed Petition for Writ of Certiorari to the United States Court of Appeals for
the Sixth Cirenit without payment of costs and fees and to proceed in forma
pauperis pursuant to Supreme Court Rule 39. The Petitioner, TOMMY LEE
JONES, proceeded in forma pauperis in this matter in the United States District
Court for the Eastern District of Michigan and the United States Court of Appeals
for the Sixth Circuit, wherein counsel was appointed pursuant to the Criminal
Justice Act, 18 USC ยง 3006 A, and with Petitioner currently being incarcerated, his

financial situation has not since improved.
Dated: September 22, 2020.

/s/ Arthur Jay Weiss

ARTHUR JAY WEISS (P 25225)
Attorney for Petitioner

30445 Northwestern Highway

Suite 225

Farmington Hills, Michigan 48334-3158
(248) 855-5888
arthurweiss@ajweisslaw.com
